           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


     UNIVERSITY OF ILLINOIS AT
       URBANA-CHAMPAIGN,
 COLLEGE OF APPLIED LIFE STUDIES,
  DISABILITY RESEARCH INSTITUTE


   June 2005        A-15-05-25122




 AUDIT REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                      SOCIAL SECURITY
MEMORANDUM


Date:   June 27, 2005                                                                   Refer To:

To:     The Commissioner

From:   Inspector General

Subject: University of Illinois at Urbana-Champaign, College of Applied Life Studies,
        Disability Research Institute (A-15-05-25122)


        OBJECTIVE
        Our objective was to determine whether the Social Security Administration’s (SSA)
        funds were used in accordance with the terms of its cooperative agreement number
        10-P-98360-5 with the University of Illinois at Urbana-Champaign (University of Illinois),
        Disability Research Institute (DRI).

        BACKGROUND
        In May 2000, SSA’s Office of Acquisition and Grants (OAG) signed a 5-year cooperative
        agreement, number 10-P-98360-5, with the University of Illinois to create the DRI. The
        purpose of the DRI was to benefit the public through four tasks to:
               •   plan, initiate, and maintain a research program;
               •   develop resources to inform the academic community, policymakers, and the
                   public on issues concerning disability policy;
               •   develop a professional training program; and
               •   facilitate research using SSA administrative data.

        SSA projected $1.25 million in funding to the University of Illinois in the first year and
        $1 million per year for subsequent years. The actual funding is found in the following
        table:
                            ACTUAL FUNDING *               FUNDING YEAR
                                        $2,321,023                  1
                                         2,991,747                  2
                                         3,242,808                  3
                                         5,543,063                  4
                                         3,930,358                  5
                         * The funding was increased from the originally projected amount to
                         provide for additional research.
Page 2 - The Commissioner


OAG’s mission is to acquire a quality product—at a reasonable price—that fully meets
the needs of the user and accomplishes the objectives of SSA’s research and
demonstration programs. SSA’s OAG uses the terms cooperative agreements1 and
grants2 interchangeably. Therefore, we also used the terms interchangeably. SSA’s
Grants Administration Manual and Grants Policy Handbook have criteria for both
cooperative agreements and grants.

SSA’s Office of Disability and Income Security Programs (ODISP) directs and manages
the planning, development, issuance, and evaluation of operational policies, standards,
and instructions for the Old-Age, Survivors and Disability Insurance program and the
Supplemental Security Income program. The project officers in ODISP’s Office of
Program Development and Research work with OAG to ensure the terms of the grants
are fulfilled.3

RESULTS OF REVIEW
During the course of our audit, we reviewed budget documentation and actual funds
used. We determined SSA’s funds were used in accordance with the terms of the
Agency’s cooperative agreement with the University of Illinois, DRI. The University of
Illinois, DRI’s accounting records were consistent with the Financial Status Report
(SF-269A) submitted to SSA. The accounting records and supporting financial
documentation supporting the Financial Status Reports demonstrated adequate
financial management.

CONCLUSION
Our review determined the University of Illinois at Urbana-Champaign submitted
accurate DRI financial information to SSA. Nothing came to our attention that indicated
SSA did not fully benefit from the Federal funds provided in the grant.




                                                    S
                                                    Patrick P. O’Carroll, Jr.




1
  The SSA Grants Policy Handbook defines a cooperative agreement as an award instrument of financial
assistance where “substantial involvement” is anticipated between the awarding Federal agency and the
recipient during performance of the contemplated project or activity.
2
  The SSA Grants Policy Handbook defines a grant as financial assistance (including cooperative
agreements) in the form of money, or property in lieu of money, by the Federal Government to an eligible
recipient.
3
 ODISP project officers are responsible for implementing the technical, scientific, and programmatic
aspects of SSA’s cooperative agreements.
                                     Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – OIG Contacts and Staff Acknowledgments
                                                                      Appendix A

Acronyms
DRI                      Disability Research Institute
OAG                      Office of Acquisition and Grants
ODISP                    Office of Disability and Income Security Programs
SSA                      Social Security Administration
University of Illinois   University of Illinois at Urbana-Champaign
                                                                      Appendix B

Scope and Methodology
We reviewed the financial information reported by the University of Illinois at
Urbana-Champaign (University of Illinois) Disability Research Institute (DRI) on the
Financial Status Report (SF-269A) for Fiscal Years 2002 through 2004, and the
quarterly progress reports to determine whether the DRI accurately reported financial
information to the Social Security Administration (SSA).

We also:

•   Interviewed SSA’s Office of Acquisition and Grants (OAG) and Office of Disability
    Income and Security Programs, Office of Program Development and Research staff
    to obtain an understanding of various processes associated with the grant, including
    the process for awarding grants and cooperative agreements.

•   Reviewed pertinent Office of Management and Budget Circulars, and appropriate
    sections of the Code of Federal Regulations, OAG Grants Administration Manual
    and Grants Policy Handbook to determine the requirements relating to grants.

•   Interviewed University of Illinois, DRI employees at Urbana-Champaign, Illinois to
    obtain an understanding of various processes associated with maintaining
    accounting records and the reporting of financial data to SSA.

•   Obtained accounting records from the University of Illinois, DRI accounting system,
    which we tested, analyzed and traced to supporting documentation.

•   Obtained and reviewed relevant documentation associated with the research
    proposals, Executive Committee and Technical Advisory Panel minutes and the
    process for awarding grants.

We determined that the data in the accounting records was sufficiently reliable given our
audit objective and intended use of the data. We based this determination on analysis
we performed on the accounting records.

We conducted our audit in accordance with generally accepted government auditing
standards. Our fieldwork was performed in Baltimore, Maryland and at the University of
Illinois at Urbana-Champaign, Illinois from December 2004 to April 2005.
                                                                      Appendix C

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Kitt Winter, Director, (410) 965-9702
   Lance Chilcoat, Audit Manager, (410) 965-9743

Acknowledgments

In addition to those named above:

   Jackie Patel, Auditor-in-Charge
   Sandra Westfall, Program Analyst
   Donna Parris, Auditor
   Annette DeRito, Writer/Editor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Specialist at (410) 965-3218. Refer to Common Identification Number
A-15-05-25122.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Executive Operations (OEO). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                  Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                               Office of Executive Operations
OEO supports OIG by providing information resource management and systems security. OEO
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, OEO is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
